UNITED STATES COURT OF APPEALS
FOR THE SIXTH CIRCUIT
Nos. 19-4092/20-3038
FIRST CHOICE CHIROPRACTIC, LLC; JAMES
FONNER, D.C.; PRESTIGE CHIROPRACTIC &
INJURY, LLC; RENNES BOWERS, D.C.; ALLIED
HEALTH & CHIROPRACTIC, LLC; TY
DAHODWALA, D.C.; SCHROEDER REFERRAL
SYSTEMS, INC.,
Plaintiffs-Appellants,
v.
MIKE DEWINE, Ohio Governor; DAVE YOST, Ohio
Attorney General; OHIO STATE CHIROPRACTIC
BOARD,
Defendants-Appellees.
Before: SUHRHEINRICH, GIBBONS, and BUSH,
Circuit Judges.
FILED
Aug. 13, 2020
DEBORAH S. HUNT, Clerk
JUDGMENT
On Appeal from the United States District Court
for the Northern District of Ohio at Cleveland.
App. 1

THIS CAUSE was heard on the record from the
district court and was argued by counsel.
IN CONSIDERATION THEREOF, it is
ORDERED that the judgment of the district court is
AFFIRMED.
ENTERED BY ORDER OF THE COURT
s/ Deb S. Hunt
Deborah S. Hunt, Clerk

App. 2

RECOMMENDED FOR PUBLICATION
Pursuant to Sixth Circuit I.O.P. 32.1(b)
File Name: 20a0258p.06
UNITED STATES COURT OF APPEALS
FOR THE SIXTH CIRCUIT
FIRST CHOICE CHIROPRACTIC, LLC; JAMES
FONNER, D.C.; PRESTIGE CHIROPRACTIC &
INJURY, LLC; RENNES BOWERS, D.C.; ALLIED
HEALTH & CHIROPRACTIC, LLC; TY
DAHODWALA, D.C.; SCHROEDER REFERRAL
SYSTEMS, INC.,
Plaintiffs-Appellants,
v.
MIKE DEWINE, Ohio Governor; DAVE YOST, Ohio
Attorney General; OHIO STATE CHIROPRACTIC
BOARD,
Defendants-Appellees.
Nos. 19-4092/20-3038
Appeal from the United States District Court
for the Northern District of Ohio at Cleveland.
No. 1:19-cv-02010—William H. Baughman,
Magistrate Judge.
Argued: August 6, 2020
App. 3

Decided and Filed: August 13, 2020
Before: SUHRHEINRICH, GIBBONS, and BUSH,
Circuit Judges.
____________________
COUNSEL
ARGUED: Paul W. Flowers, PAUL W. FLOWERS
CO., L.P.A., Cleveland, Ohio, for Appellants. Samuel
C. Peterson, OFFICE OF THE OHIO ATTORNEY
GENERAL, Columbus, Ohio, for Appellees. ON
BRIEF: Paul W. Flowers, Louis E. Grube, PAUL W.
FLOWERS CO., L.P.A., Cleveland, Ohio, for
Appellants.
Samuel C. Peterson, Benjamin M.
Flowers, Michael J. Hendershot, Michael A. Walton,
OFFICE OF THE OHIO ATTORNEY GENERAL,
Columbus, Ohio, for Appellees.
____________________
OPINION
____________________
JULIA SMITH GIBBONS, Circuit Judge. Ohio law
prohibits health care practitioners and their agents
from directly soliciting business from victims of a
motor vehicle accident or crime, by any means other
than U.S. mail, until thirty days after the date of the
incident. The plaintiffs in this case are various
chiropractors and a referral service that appeal the
district court’s denial of their request for injunctive
and declaratory relief. They claim that the statute
App. 4

restricts commercial speech in violation of the First
Amendment. They also contend that the restrictions’
focus on health care practitioners, but not other
professional industries, violates the Fourteenth
Amendment’s guarantee of equal protection. Because
our precedents squarely foreclose the plaintiffs’
challenges, we affirm.
I.
In 2019, the Ohio General Assembly adopted
Ohio Revised Code § 1349.05 as part of its biennial
budget bill. H.B. 166, 133rd Gen. Assemb., 2019–
2020 Sess. (Ohio 2019). Section 1349.05 restricts
health care practitioners—including chiropractors—
and their agents in directly soliciting business from
accident or crime victims.
Ohio Rev. Code §
1349.05(A)(3)(e), (B), (C). Subsection (B) regulates
health care practitioners and provides as follows:
No health care practitioner, with the
intent
to
obtain
professional
employment for the health care
practitioner, shall directly contact in
person, by telephone, or by electronic
means any party to a motor vehicle
accident, any victim of a crime, or any
witness to a motor vehicle accident or
crime until thirty days after the date of
the motor vehicle accident or crime. Any
communication to obtain professional
employment shall be sent via the United
States postal service.
App. 5

Subsection (C) provides the same restrictions but with
regard to the agents of health care practitioners:
No person who has been paid or given, or
was offered to be paid or given, money or
anything of value to solicit employment
on behalf of another shall directly
contact in person, by telephone, or by
electronic means any party to a motor
vehicle accident, any victim of a crime, or
any witness to a motor vehicle accident
or crime until thirty days after the date
of the motor vehicle accident or crime.
Any
communication
to
solicit
employment on behalf of another shall
be sent via the United States postal
service.
The plaintiffs in this case largely consist of
entities and individuals that provide chiropractic
services. One of the plaintiffs, Schroeder Referral
Systems, Inc., is a referral service that identifies and
contacts prospective patients for health care
providers. The plaintiffs claim that they “all rely upon
advertising and marketing techniques that permit
prompt contact with victims of motor vehicle and
pedestrian accidents.” (CA6 R. 23, Appellant Br., at
24.)
Prior to the effective date of § 1349.05, the
plaintiffs commenced an action for declaratory and
injunctive relief. They alleged that the statute
violates their constitutional rights to free speech and
App. 6

equal protection. The plaintiffs then filed a motion for
a preliminary injunction under Federal Rule of Civil
Procedure 65(a).
The district court denied the plaintiffs’ motion
for a preliminary injunction. It found that the
plaintiffs failed to show a substantial likelihood of
succeeding on the merits of their free speech and
equal protection claims, noting that “strong”
precedents foreclosed the plaintiffs’ challenges. (DE
22, Mem. Op. & Order, PageID 179.) The plaintiffs
appealed the district court’s denial of their motion.
The parties then stipulated in the district court that
they did not intend to put forth any more evidence or
arguments, and the district court entered a final
judgment denying relief for the plaintiffs. The
plaintiffs appealed that judgment as well.
We
granted their motion to consolidate the two appeals.
II.
The plaintiffs challenge the district court’s
denial of their request for injunctive relief. They raise
two issues on appeal. First, they argue that § 1349.05
imposes restrictions on commercial speech in
violation of the First Amendment. Second, they claim
that § 1349.05 violates the Fourteenth Amendment’s
Equal Protection clause by regulating health care
practitioners but not other professionals who may

App. 7

similarly contact accident or crime victims.1 Neither
claim has merit.
A.
As a threshold matter, the parties dispute the
scope of subsections (B) and (C)—the provisions that
place restrictions on the solicitation of accident and
crime victims.
The government explains that
subsections (B) and (C) forbid health care
practitioners and their agents from directly soliciting
accident and crime victims in person, by phone, or by
electronic means, only within the thirty days
following the accident or crime. The plaintiffs,
however, insist on an interpretation where the statute
prohibits health care practitioners and their agents
from ever soliciting business from accident or crime
victims, by any means, at any time, unless through
U.S. mail. The plaintiffs even suggest that § 1349.05
permanently bars indirect communications, such as
television commercials, newspaper listings, and
billboards.

The plaintiffs, in their briefing, also make passing
condemnations of the enforcement mechanism contained in §
1349.05(D) and (E). According to the plaintiffs, the provisions
allow Ohio to permanently revoke health care practitioners’
licenses without a hearing. The government contends that the
enforcement mechanism does no such thing. Ultimately, we
need not address the plaintiffs’ characterization of the
enforcement mechanism because the plaintiffs have never
articulated a claim—such as a due process challenge—based on
these allegations. And they fail to explain how purported issues
with the enforcement mechanism would pertain to a free speech
or equal protection claim.

1

App. 8

In construing § 1349.05, we “must predict how
the [Ohio Supreme Court] would interpret the
statute,” and we “apply the general rules of statutory
construction as embraced by the [Ohio] judiciary.”
United States v. Simpson, 520 F.3d 531, 535–36 (6th
Cir. 2008) (citing Meridian Mut. Ins. Co. v. Kellman,
197 F.3d 1178, 1181 (6th Cir. 1999).
We agree with the government’s interpretation
of the statute and find the plaintiffs’ interpretation to
be unsupported by the statutory language. The first
sentence of each subsection, together, state that
health care practitioners and their agents cannot, as
a means of soliciting business, “directly contact in
person, by telephone, or by electronic means” any
party or witness to an accident or crime, “until thirty
days after the date of the . . . accident or crime.” §
1349.05(B), (C) (emphasis added). The provisions
unambiguously lift their restrictions on direct
solicitations once thirty days has passed from the date
of the accident or crime. The second sentence then
clarifies what form of direct contact is not prohibited
during
the
initial
thirty-day
window:
2
communications through U.S. mail. See id. (“Any
communication to obtain professional employment
shall be sent via the United States postal service.”).
The plaintiffs entirely divorce this second
sentence from the rest of the provision and claim that,
when read in isolation, the second sentence
unambiguously prohibits any form of solicitation at
any time except through U.S. mail. We cannot,
however, read this one sentence in isolation—we must
Because the second sentences of subsections (B) and (C) are
identical, we refer to the sentence in the singular form.

2

App. 9

read it in the broader context of the statute. Ohio Rev.
Code § 1.42; see also Elec. Classroom of Tomorrow v.
Ohio Dep’t of Educ., 118 N.E.3d 907, 909 (Ohio 2018)
(“Because a statute must be considered as a whole, ‘a
court cannot pick out one sentence and disassociate it
from the context . . . .’” (quoting State v. Wilson, 673
N.E.2d 1347, 1350 (Ohio 1997))).
When § 1349.05 is read in its entirety, its scope
is clear. It prohibits health care practitioners and
their agents from directly soliciting accident or crime
victims, within the thirty days following the accident
or crime, by any means other than U.S. mail. After
the thirty days have passed, the statute no longer
restricts direct solicitations. To read the second
sentence of subsections (B) and (C) as prohibiting any
form of soliciation, at any time, except those through
U.S. mail would render the entire preceding sentence
meaningless. In other words, if all non-mail direct
solicitations were prohibited at all times, there would
be no need to more narrowly state that non-mail,
direct solicitations are banned just in the thirty days
after an incident. See Boley v. Goodyear Tire & Rubber
Co., 929 N.E.2d 448, 452 (Ohio 2010) (“No part [of a
statute] should be treated as superfluous unless that
is manifestly required, and the court should avoid
that construction which renders a provision
meaningless or inoperative.” (quoting State ex rel.
Myers v. Bd. of Educ., 116 N.E. 516, 517 (Ohio 1917))).
Moreover, contrary to the plaintiffs’ suggestion, the
statute explicitly regulates only “direct”—and not
indirect—communications; thus, under the statute,
health care practitioners and their agents are free, at
any time, to solicit business by means of general
advertisements to the public, such as through
App. 10

television advertisements, newspaper listings, or
billboards.
Even if the plaintiffs’ interpretation of the
statute were plausible, the canon of constitutional
avoidance would nevertheless lead us to adopt the
government’s interpretation. See State ex rel. Taft v.
Franklin Cty. Court of Common Pleas, 692 N.E.2d
560, 561–62 (Ohio 1998) (“Courts have a duty to
liberally construe statutes to avoid constitutional
infirmities.” (citing Hughes v. Ohio Bur. Of Motor
Vehicles, 681 N.E.2d 305, 307 (Ohio 1997)));
Willoughby v. Taylor, 906 N.E.2d 511, 514–15 (Ohio
Ct. App. 2009) (observing that “all legislative
enactments enjoy a presumption of constitutionality,
and the courts must apply all presumptions and
pertinent rules of construction so as to uphold, if at all
possible, a statute or ordinance assailed as
unconstitutional” (internal quotation marks and
citations omitted)). Because, as we explain below, the
government’s interpretation of § 1349.05 is
constitutionally sound, it would prevail over the
plaintiffs’
misguided
and
almost-certainly
unconstitutional interpretation.
B.
Having clarified the scope of § 1349.05, we next
analyze its constitutionality under the First
Amendment. We review the constitutionality of the
statute de novo. Chambers v. Stengel, 256 F.3d 397,
400 (6th Cir. 2001).
“The First Amendment, as applied to the States
through the Fourteenth Amendment, protects
App. 11

commercial speech from unwarranted governmental
regulation.” Cent. Hudson Gas & Elec. Corp. v. Pub.
Serv. Comm’n of N.Y., 447 U.S. 557, 561 (1980) (citing
Va. Pharmacy Bd. v. Va. Citizens Consumer Council,
425 U.S. 748, 761–62 (1976)). First Amendment
jurisprudence, however, “accords a lesser protection
to commercial speech than to other constitutionally
guaranteed expression.” Id. at 562–63 (citing Ohralik
v. Ohio State Bar Ass’n, 436 U.S. 447, 456–57 (1978)).
The state bears the burden of justifying its
commercial speech restriction as consistent with the
First Amendment. Sorrell v. IMS Health Inc., 564
U.S. 552, 571–72 (2011) (citing Thompson v. W. States
Med. Ctr., 535 U.S. 357, 373 (2002)). In order to
justify a restriction on commercial speech, the state
must show that “the statute directly advances a
substantial government interest and that the
measure is drawn to achieve that interest.” Id. at 572
(citations omitted).
The Supreme Court has delineated a four-part,
intermediate-scrutiny test for determining the
validity of a regulation on commercial speech. Cent.
Hudson, 447 U.S. at 566. First, “we must determine
whether the expression is protected by the First
Amendment”—i.e., the regulated speech at issue must
“concern lawful activity and not be misleading.” Id.
Second, we assess “whether the asserted
governmental interest is substantial.” Id. If the
speech falls within the ambit of the First Amendment
and the governmental interest is substantial, we next
consider “whether the regulation directly advances
the governmental interest asserted.” Id. Finally, we

App. 12

ask whether the regulation “is not more extensive
than is necessary to serve that interest.”3 Id.
This final criterion is less onerous than the
least-restrictive-means standard applied to other
restrictions on expression. Greater New Orleans
Broad. Ass’n, Inc. v. United States, 527 U.S. 173, 188
(1999). The state “must demonstrate narrow tailoring
of the challenged regulation to the asserted interest—
‘a fit that is not necessarily perfect, but reasonable;
that represents not necessarily the single best
disposition but one whose scope is in proportion to the
interest served.’” Id. (quoting Bd. of Trs. v. Fox, 492
U.S. 469, 480 (1989)).
The plaintiffs cite to the Supreme Court’s more recent decision
in Sorrell v. IMS Health, Inc., 564 U.S. 552 (2011), to suggest
that a stricter level of scrutiny applies to content- and speakerbased restrictions on commercial speech like the one at issue
here. Yet they fail to explain how the standard applied in Sorrell
differs from the Central Hudson test. Understandably so,
because Sorrell neither delineated a new test nor modified the
Central Hudson test. While the Court did state generally that
“heightened” scrutiny applies, it ultimately applied the same
Central Hudson test to the statute at issue. See id. at 565, 572.
Although the Court struck down the statute as inconsistent with
the First Amendment, there is no reason to believe its conclusion
was based on a different level of scrutiny. And, since Sorrell, our
court has continued to apply the Central Hudson test in First
Amendment cases concerning commercial restrictions on
solicitation of business. See, e.g., Bevan & Assocs., LPA, Inc. v.
Yost, 929 F.3d 366, 377 (6th Cir. 2019) (applying the Central
Hudson test to an Ohio statute that prohibited all solicitation, by
any individual, to represent a party in a worker’s compensation
claim); Kiser v. Kamdar, 831 F.3d 784, 788–89 (6th Cir. 2016)
(applying the Central Hudson test to a content- and speakerbased restriction on advertising imposed by the Ohio State
Dental Board).
3

App. 13

Both the Supreme Court and our court have
applied the above Central Hudson test to uphold state
restrictions analogous to § 1349.05. See Florida Bar
v. Went For It, Inc., 515 U.S. 618, 623–35 (1995);
Capobianco v. Summers, 377 F.3d 559, 561–64 (6th
Cir. 2004); Chambers, 256 F.3d 397, 403–05 (6th Cir.
2001). In Florida Bar, the Supreme Court found that
the Florida Bar’s rule against lawyers using direct
mail to solicit personal injury clients within thirty
days of an accident did not violate the First
Amendment. 515 U.S. at 620. Finding that the rule
was a restriction on commercial speech, the Court
applied the Central Hudson test. Id. at 623–35. The
Florida Bar asserted that it has a substantial interest
in “protecting the privacy and tranquility of personal
injury victims and their loved ones against intrusive,
unsolicited contact by lawyers.”4 Id. at 624. The
Court had “little trouble crediting the Bar’s interest
as substantial.” Id. at 625. Regarding the third
prong, the Court highlighted evidence showing that
the public finds direct-mail solicitation “in the
immediate wake of accidents” to be an intrusion on
privacy, id. at 626, and thus concluded that the directmail solicitation regulation directly advanced the
Bar’s asserted interest, id. at 628. Finally, the Court
The Florida Bar also asserted a substantial interest in
regulating the reputation of the legal profession and claimed,
with supporting evidence, that such direct solicitations damage
that reputation. Florida Bar, 515 U.S. at 625–27. The
government here has not clearly asserted a similar interest in
regulating the reputation of the health care profession, instead
focusing on the state’s interest in protecting the privacy of
accident and crime victims. We therefore do not address Florida
Bar’s discussion of this reputational interest.

4

App. 14

found that the fourth prong was satisfied because
“[t]he Bar’s rule is reasonably well tailored to its
stated objective of eliminating targeted mailings
whose type and timing are a source of distress to
Floridians.” Id. at 633.
In Capobianco, we relied on Florida Bar to
uphold a regulation by Tennessee’s chiropractic
licensing board that restricted chiropractors’ ability to
solicit recent accident victims. 377 F.3d at 564. The
regulation provided as follows: “Telemarketing or
telephonic solicitation by [licensed chiropractors],
their employees, or agents to victims of accidents or
disaster shall be considered unethical if carried out
within thirty (30) days of the accident or disaster, and
subject the licensee to disciplinary action . . . .” Id. at
561 (quoting Tenn. Comp. R. & Regs. § 0260-02–
.20(6)(a) (2000)). We found that Tennessee’s asserted
interests—“protecting the privacy of accident victims,
preventing overreaching by chiropractors and their
agents and regulating the profession”—were
substantial. Id. at 562 (citation omitted). We then
found that the regulation directly advanced
Tennessee’s asserted interest in protecting accident
victims, and that the regulation was narrowly drawn.
Id. at 562–63. Similarly, in Chambers, we relied on
Florida Bar and applied the same reasoning as in
Capobianco to uphold a Kentucky statute that
criminalized the solicitation of accident victims by
attorneys within thirty days of the accident. 256 F.3d
at 403–05.
With these precedents in mind, we conclude
that § 1349.05 withstands First Amendment scrutiny
under the Central Hudson test. It is undisputed that
§ 1349.05 restricts truthful communications and thus
App. 15

satisfies Central Hudson’s first prong. And Ohio’s
asserted interest in protecting the privacy of recent
accident and crime victims is certainly substantial.
See Florida Bar, 515 U.S. at 625 (“Our precedents also
leave no room for doubt that ‘the protection of
potential clients’ privacy is a substantial state
interest.’” (quoting Edenfield v. Fane, 507 U.S. 761,
769 (1993))). The third prong is satisfied as well. Just
as the analogous restrictions in Florida Bar,
Capobianco, and Chambers directly advanced the
government’s substantial interests, § 1349.05 directly
advances Ohio’s substantial interest in protecting the
privacy of recent accident or crime victims because,
during the thirty-day aftermath of an accident or
crime, the statute limits intrusions on that privacy by
health care practitioners and their agents.5
The plaintiffs suggest that the government has not satisfied the
third prong because § 1349.05 was enacted without any
legislative findings or other supporting evidence. This argument
fails for several reasons. First, anecdotal evidence is sufficient
for satisfying this prong. Florida Bar, 515 U.S. at 628. The Ohio
General Assembly conducted numerous hearings concerning the
solicitation of accident and crime victims, and it heard testimony
from both proponents and opponents of restrictions on these
solicitations. See History of S.B. 148, 132nd Gen. Assemb. (Ohio
2017),
available
at
https://www.legislature.ohio.gov/legislation/legislationcommittee-documents?id=GA132-SB-148. The government cited
to these hearings in its Answer to the plaintiffs’ complaint,
stating that “[h]arassing and overbearing solicitation practices
have been a problem in Ohio that was known to the General
Assembly, and regulations such as Ohio’s constitute an effective
way of addressing Ohio’s interests in protecting victims.” DE 28,
Answer, PageID 298. The plaintiffs provide no reasoned basis
for assigning less weight to this evidence merely because it was
5

App. 16

Finally, § 1349.05 is narrowly tailored in
satisfaction of the fourth prong. The statute only
restricts the most intrusive, direct types of
solicitations—in person, telephonic, and electronic—
as opposed to indirect, public-facing communications
such as television or billboard advertisements. And it
lifts those restrictions after thirty days, at which point
the victim’s trauma or other distress related to the
incident has presumably subsided, at least to a
degree. The statute’s scope, thus, is “in proportion to
the interest served,” Greater New Orleans, 527 U.S. at
188 (quoting Fox, 492 U.S. at 480 (1989)), and it
“extend[s] only as far as the interest it serves,”
Central Hudson, 447 U.S. at 565. Our conclusion is
further bolstered by the fact that § 1349.05’s
restrictions are slightly less onerous than similar
restrictions that we and the Supreme Court have
upheld. See, e.g., Florida Bar, 515 U.S. at 620
(prohibiting even written solicitations sent through
the mail); Chambers, 256 F.3d at 399 (prohibiting
direct solicitation of any form).

derived from the 132nd General Assembly rather than the 133rd.
Moreover, the government can justify restrictions on speech
using evidence from “different locales altogether.” Florida Bar,
515 U.S. at 628 (collecting cases). Here, the government’s
reliance on Capobianco, in which Tennessee presented evidence
of harms caused by direct solicitations of recent accident victims,
377 F.3d at 562, further demonstrates that § 1349.05 directly
advances a substantial government interest. Finally, “simple
common sense” can also suffice under the third prong. Florida
Bar, 515 U.S. at 628 (quoting Burson v. Freeman, 504 U.S. 191,
211 (1992)). Common sense tells us that § 1349.05 directly
advances Ohio’s interest in protecting the privacy of accident and
crime victims by restricting intrusions upon that privacy.

App. 17

In sum, because § 1349.05’s restrictions survive
scrutiny under Central Hudson, and because our
court and the Supreme Court have upheld materially
indistinguishable restrictions in other states, the
statute does not violate the First Amendment’s
guarantee of free speech.
C.
Next, we turn to the plaintiffs’ equal protection
challenge.
The Fourteenth Amendment’s Equal
Protection Clause provides that “[n]o state shall . . .
deny to any person within its jurisdiction the equal
protection of the laws.” The guarantee of equal
protection “does not require that all persons be dealt
with identically.” Baxstrom v. Herold, 383 U.S. 107,
111 (1996). Rather, “[i]t requires only that the state
treat similarly situated persons alike, and that where
the state distinguishes between classifications of
persons, the distinction must ‘have some relevance to
the purposes for which the classification is made.’”
Capobianco, 377 F.3d at 564–65 (quoting Chambers,
256 F.3d at 401); see also City of Cleburne v. Cleburne
Living Ctr., 473 U.S. 432, 439 (1985).
The plaintiffs’ equal protection claim largely
rises or falls with their free speech claim. Our equal
protection jurisprudence calls for intermediate
scrutiny of commercial speech restrictions like the one
at issue here. See Capobianco, 377 F.3d at 564 (citing
Chambers, 256 F.3d at 401). Under this test,
commercial
speech
restrictions
“survive
constitutional assessment if the implicated measure
was narrowly fashioned to further a significant
App. 18

governmental interest.” Id. (quoting Chambers, 256
F.3d at 401). Our court treats this “significant
governmental interest” standard and Central
Hudson’s “substantial government interest” standard
as materially indistinguishable.
Id.; see also
Chambers, 256 F.3d at 401 (“Because regulation of
commercial speech is subject to intermediate scrutiny
in a First Amendment challenge, it follows that equal
protection claims involving commercial speech also
are subject to the same level of review.”). In
Capobianco, for example, we held that Tennessee’s
prohibition against chiropractors soliciting accident
victims within thirty days complied with the Equal
Protection Clause, and we based our conclusion, in
large part, on our First Amendment finding that the
restrictions were narrowly tailored to further a
substantial government interest. 377 F.3d at 564.
The same reasoning applies here. Because §
1349.05 survives intermediate scrutiny under the
First Amendment analysis, it likewise survives the
plaintiffs’ equal protection challenge. Put differently,
the statute is “narrowly tailored to further a
significant governmental interest” in protecting the
privacy of accident and crime victims. Chambers, 256
F.3d at 401. Although § 1349.05 only regulates health
care practitioners—and not other professional
industries—this distinction has “some relevance” to
the interests the statute advances, Chambers, 256
F.3d at 401, because, by the plaintiffs’ own admission,
health care practitioners such as chiropractors tend to
rely on direct solicitation of recent accident victims.
In any case, Ohio does indeed regulate other
professionals in a similar manner. For example, the
Ohio Rules of Professional Conduct bar lawyers from
App. 19

ever soliciting business in person, by telephone, or by
live electronic means. Ohio Prof. Cond. Rule 7.3(a).
That Ohio regulates these professions through
separate instances of rulemaking is not only
constitutionally permissible but also expected. See
Schilb v. Kuebel, 404 U.S. 357, 364 (1971) (“[S]tate
legislative reform by way of classification is not to be
invalidated merely because the legislature moves one
step at a time.”). Accordingly, the plaintiffs’ equal
protection claim is unavailing.
III.
For these reasons, we affirm the district court’s
denial of declaratory and injunctive relief.

App. 20

IN THE UNITED STATES DISTRICT COURT
NORTHERN DISTRICT OF OHIO
EASTERN DIVISION
FIRST CHOICE CHIROPRACTIC,
LLC, et al.,
Plaintiffs,
v.
OHIO GOVERNOR MIKE DeWINE,
et al.,
Defendants.

Case No. 1:19CV2010
MAGISTRATE JUDGE
WILLIAM H. BAUGHMAN, JR.
JUDGMENT
This action came before the Court, the
Honorable William H. Baughman, Jr., Magistrate
Judge, presiding, on plaintiffs’ First Amended Class
Action Complaint for Declaratory and Injunctive
Relief. The issues having been duly adjudicated, and
the Court having first denied plaintiffs’ Motion for
Preliminary Injunction; and further, the parties
App. 21

having stipulated that they do not intend to submit
any further evidence or argumentation in these
proceedings and having asked the Court to proceed to
adjudicate the merits of the First Amended
Complaint’s claims for declaratory and injunctive
relief based upon the present record; and further, the
Court having issued a Memorandum Opinion and
Order by which all of plaintiffs’ claims are denied,
ACCORDINGLY, IT IS ORDERED AND
ADJUDGED that plaintiffs take nothing by way of
their amended complaint against defendants, and no
relief shall be granted; and
IT
IS
FURTHER
ORDERED
AND
ADJUDGED that, by stipulation of the parties, the
parties shall bear their own costs of these
proceedings.
Dated: January 3, 2020
s/ William H. Baughman, Jr.
United States Magistrate Judge

App. 22

IN THE UNITED STATES DISTRICT COURT
NORTHERN DISTRICT OF OHIO
EASTERN DIVISION
FIRST CHOICE CHIROPRACTIC,
LLC, et al.,
Plaintiffs,
v.
OHIO GOVERNOR MIKE DeWINE,
et al.,
Defendants.

Case No. 1:19CV2010
MAGISTRATE JUDGE
WILLIAM H. BAUGHMAN, JR.
MEMORANDUM OPINION AND ORDER
I.
On August 30, 2019, three chiropractic care
and treatment facilities, their owners, and a patient
referral service sought injunctive and declaratory
relief to stop certain provisions of Ohio’s 2020-2021
App. 23

Biennial Budget Bill1 from going into effect. Plaintiffs
challenged provisions that regulate marketing and
solicitation practices by chiropractors in Ohio.
On October 16, 2019, I denied plaintiffs’ motion
for a preliminary injunction.2 I based my opinion
primarily on the analysis by federal courts, including
the Sixth Circuit, of similar regulations in other
states. Fundamental to that analysis is the Supreme
Court’s opinion in Central Hudson Gas & Electric
Corp. v. Public Service Commission of New York3 that
articulated a four-part intermediate scrutiny test for
assessing the constitutionality of state-imposed
regulations on commercial speech.
Plaintiffs’ appealed my order.4 Shortly
thereafter, the defendants answered the amended
complaint.5 About a month later, the parties filed a
joint stipulation informing me of their intention not to
submit any further evidence or argumentation, and
asking that I proceed to adjudicate the merits of the
First Amended Class Action Complaint for
Declaratory and Injunctive Relief based upon the
present record.6 I do so with this order. Because I
denied the motion for a preliminary injunction and no
further evidence is to be provided, law and logic
Am. Sub. H.B. No. 166, 133rd G.A. (Ohio 2019). See
https://www.legislature.ohio.gov/legislation/legislationstatus?id=GA133-HB-166 for a complete history of the 20202021 Biennial Budget Bill.
2 ECF #22. The parties had consented to my jurisdiction on
September 17, 2019.
3 447 U.S. 557 (1980).
4 ECF #27.
5 ECF #28.
6 ECF #29.
1

App. 24

require that I also deny plaintiffs’ request for
declaratory and injunctive relief.
II.
Before proceeding to the merits, I need to
address two preliminary matters.
First, if the
plaintiffs have already appealed my order of October
16, 2019 denying the motion for a preliminary
injunction, how can I rule on the First Amended
Complaint’s claims for declaratory and injunctive
relief? Asked another way, how can I enter a final
judgment in this case if part of the case is already
before the Sixth Circuit? I can issue this order
because I lost jurisdiction upon appeal of my October
16, 2019 order only over those aspects of the case on
appeal.7 Plaintiffs appealed only my order of October
16, 2019, which dealt solely with their motion for a
preliminary injunction.8
Consequently, I retain
jurisdiction over the rest of the case unrelated to
plaintiffs’ motion for a preliminary injunction.
Second, the parties now want me to adjudicate
the merits of the First Amended Complaint’s claims
for declaratory and injunctive relief, but do I then
need to be specific as to which type of relief I am
adjudicating? No, practically speaking, because the
Supreme Court has recognized that the practical
See, e.g., Williamson v. Recovery Ltd. P’ship, 731 F.3d 608, 626
(6th Cir. 2013); Weaver v. Univ. of Cincinnati, 970 F.2d 1523,
1528–29 (6th Cir. 1992). See also Brent v. Wayne Cty. Dep’t of
Human Servs., 901 F.3d 656, 692 (6th Cir. 2018), cert. denied, __
U.S. __, 139 S. Ct. 1551 (2019).
8 ECF #27.
7

App. 25

effect of injunctive and declaratory relief can be
virtually identical.9 Moreover, in analyzing this case
for potential injunctive relief, the law requires me to
determine whether Ohio’s new Budget Bill violates
federal constitutional rights.
That’s the same
question I must answer when determining whether
declaratory relief is appropriate. Were I to grant
relief, the Supreme Court has suggested that
declaratory relief will normally be sufficient to protect
a plaintiff’s interests, though in some circumstances
injunctive relief may be appropriate as well.10
III.
“The standard for a preliminary injunction is
essentially the same as for a permanent injunction
with the exception that the plaintiff must show a
likelihood of success on the merits rather than actual
success.”11 It follows then that “[a] party is entitled to
a permanent injunction if it can establish that it
suffered a constitutional violation and will suffer
‘continuing irreparable injury’ for which there is no
adequate remedy at law.”12
Wooley v. Maynard, 430 U.S. 705, 711 (1977).
Id. at 711-12.
11 Amoco Prod. Co. v. Village of Gambell, AK, 480 U.S. 531, 546
n.12 (1987) (emphasis added) (citing Univ. of Texas v.
Camenisch, 451 U.S. 390, 392 (1981)). See also Am. Civil
Liberties Union of Kentucky v. McCreary Cty., Ky., 607 F.3d 439,
445 (6th Cir. 2010); Jolivette v. Husted, 694 F.3d 760, 765–66
(6th Cir. 2012).
12 Women's Med. Prof’l Corp. v. Baird, 438 F.3d 595, 602 (6th Cir.
2006) (quoting Kallstrom v. City of Columbus, 136 F.3d 1055,
1067 (6th Cir. 1998)).
9

10

App. 26

To review, I examined the four factors required
by law in denying plaintiffs’ motion for a preliminary
injunction: whether plaintiffs have established a
substantial likelihood or probability of success on the
merits of their claims; whether plaintiffs would suffer
irreparable injury if a preliminary injunction did not
issue; whether the injunction would cause substantial
harm to others; and whether the public interest would
be served if I were to grant the requested injunction.13
I was mindful that “[a]lthough no one factor is
controlling, a finding that there is simply no
likelihood of success on the merits is usually fatal.”14
I was also mindful that “[a] preliminary injunction is
an extraordinary remedy never awarded as of right.”15
The law requires careful analysis of these
factors. “In each case, courts ‘must balance the
competing claims of injury and must consider the
effect on each party of the granting or withholding of
the requested relief.’ ”16 In exercising my discretion,
Liberty Coins, LLC v. Goodman, 748 F.3d 682, 689-90 (6th Cir.
2014); Chabad of S. Ohio & Congregation Lubavitch v. City of
Cincinnati, 363 F.3d 427, 432 (6th Cir. 2004); Blue Cross & Blue
Shield Mut. of Ohio v. Blue Cross & Blue Shield Ass’n, 110 F.3d
318, 322 (6th Cir. 1997). Accord Chiropractors United for
Research & Educ., LLC v. Conway, slip op., No. 3:15-CV-00556GNS, 2015 WL 5822721, at *1–2 (W.D. Ky. Oct. 1, 2015), aff’d,
Case No. 15-6103 (6th Cir. July 1, 2016) (unpub. op.) (affirming
denial of preliminary injunction on a similar regulation affecting
healthcare providers related to solicitation of motor vehicle
accident victims).
14 Gonzales v. Nat’l Bd. of Med. Examiners, 225 F.3d 620, 625
(6th Cir. 2000).
15 Winter v. Nat. Res. Def. Council, Inc., 555 U.S. 7, 24 (2008)
(citing Munaf v. Geren, 553 U.S. 674, 689-90 (2008)).
16 Winter, id. (quoting Amoco Prod. Co., supra, 480 U.S. at 542).
13

App. 27

I paid “particular regard for the public consequences
in employing the extraordinary remedy of
injunction.”17
“When a party seeks a preliminary injunction
on the basis of the potential violation of the First
Amendment, the likelihood of success on the merits
often will be the determinative factor.”18 Exhaustive
analysis demonstrated that it was so in this case. I
concluded that under the intermediate scrutiny test,
plaintiffs failed to show a substantial likelihood or
probability of winning their First Amendment claim
on the merits. I also concluded that plaintiffs failed
to show a substantial likelihood or probability of
winning their Fourteenth Amendment equal
protection claim on the merits.
I analyzed the other three prongs of the
preliminary injunction test as well. I concluded that
plaintiffs on balance failed to carry their burden on all
four prongs of the preliminary injunction test. As an
example, plaintiffs warned that their referral service
would “effectively and immediately shut down,” and
employee layoffs, bankruptcy, and the loss of business
and future referrals would result absent an
injunction.19 If the chiropractic profession had in fact
suffered this irreparable injury as forecasted,
plaintiffs would have made sure I saw this parade of
horribles that befell them. Yet they produced nothing

Weinberger v. Romero-Barcelo, 456 U.S. 305, 312 (1982).
Connection Distrib. Co. v. Reno, 154 F.3d 281, 288 (6th Cir.
1998). Accord Obama for Am. v. Husted, 697 F.3d 423, 436 (6th
Cir. 2012); Jones v. Caruso, 569 F.3d 258, 265 (6th Cir. 2009).
19 ECF #3-1, at 2; ECF #3-2; at 2; ECF #3-3, at 2; ECF #3-4, at 2.
17
18

App. 28

of the sort over the two and a half months since the
order denying the preliminary injunction.
The record evidence fell short of the standard
for a preliminary injunction. Permanent injunctive
relief carries an even higher standard. On the
evidence before me, plaintiffs failed to show a
likelihood of success on the merits of their claims.
Logic and the law would then dictate that plaintiffs
cannot meet the heavier burden of showing actual
success on the merits with the same evidence. With
no additional evidence to support their case and in
light of the law outlined above, plaintiffs have failed
to meet their burden of showing they are entitled to
declaratory or injunctive relief in this case.
IV.
For the reasons set forth above, I hold that
plaintiffs have failed to show that Ohio’s new Budget
Bill violates their constitutional rights under either
the First Amendment or the Fourteen Amendment.
Accordingly, I deny their claims for declaratory and
injunctive relief.
IT IS SO ORDERED.
Dated: January 3, 2020
s/ William H. Baughman, Jr.
United States Magistrate Judge

App. 29

IN THE UNITED STATES DISTRICT COURT
NORTHERN DISTRICT OF OHIO
EASTERN DIVISION
FIRST CHOICE CHIROPRACTIC,
LLC, et al.,
Plaintiffs,
v.
OHIO GOVERNOR MIKE DeWINE,
et al.,
Defendants.

Case No. 1:19CV2010
MAGISTRATE JUDGE
WILLIAM H. BAUGHMAN, JR.
MEMORANDUM OPINION AND ORDER
I.
In its seminal case on commercial speech,1 the
Supreme Court articulated a four-part intermediate
Central Hudson Gas & Electric Corp. v. Public Service
Commission of New York, 447 U.S. 557 (1980).

1

App. 30

scrutiny test to guide constitutional analysis of stateimposed regulations. If the commercial message
accurately informs the public about lawful activity
and if the state asserts a substantial interest to be
achieved by the regulations under consideration, then
a court must next determine whether the result
directly advances the interest the state asserts, and
whether the regulations are not more extensive than
necessary to serve that interest.
Plaintiffs here, a group of chiropractors
practicing in Ohio and one of their referral companies,
argue that newly enacted statutes governing their
business fail all four parts, and that an even stricter
test is required. They also claim the new enactments
violate equal protection guarantees of the Fourteenth
Amendment. Plaintiffs seek to stop the regulations
from taking effect on October 17, 2019.2
Before I can undertake this constitutional
analysis, I must determine whether plaintiffs have
met their burden under a well-established four-prong
test that would entitle them to a preliminary
injunction.
The first prong of the preliminary
injunction test in effect intersects with the
intermediate scrutiny analysis, since this first prong
requires plaintiffs to show a substantial likelihood or
probability of winning this lawsuit on its merits.
In their zeal to enjoin Ohio from enforcing these
new enactments, plaintiffs focus too little on how
federal courts including the Sixth Circuit have
already applied the law to similar regulation of
chiropractors’ commercial speech in other states.
Because of this governing law and because plaintiffs
2

ECF No. 3.

App. 31

have provided no reason to justify a departure from it,
I find that plaintiffs have not met their burden for
obtaining preliminary injunctive relief. I, therefore,
deny plaintiffs’ motion for a preliminary injunction.
II.
This lawsuit began on August 30, 2019 when
three chiropractic care and treatment facilities
created under Ohio law (First Choice Chiropractic,
LLC, Prestige Chiropractic & Injury, LLC, and Allied
Health & Chiropractic, LLC), their three respective
owners (James Fonner, D.C., Rennes Bowers, D.C.,
and Ty Dahodwala, D.C.), and a patient referral
service incorporated under Ohio law (Schroeder
Referral Systems, Inc.) sued the State of Ohio, the
Ohio General Assembly, and the Ohio State
Chiropractic Board for declaratory and injunctive
relief.3 The plaintiffs challenge several provisions in
the State of Ohio’s 2020-2021 Biennial Budget Bill.4
Plaintiffs challenge new Ohio Rev. Code §
149.43(A)(1)(mm), which excludes from the definition
of “public record” in that section “[t]elephone numbers
for a victim, as defined in section 2930.01 of the
Revised Code, a witness to a crime, or a party to a
motor vehicle accident subject to the requirements of
section 5502.11 of the Revised Code that are listed on
any law enforcement record or report.”
ECF No. 1.
Am. Sub. H.B. No. 166, 133rd G.A. (Ohio 2019). See
https://www.legislature.ohio.gov/legislation/legislationstatus?id=GA133-HB-166 for a complete history of the 20202021 Biennial Budget Bill.
3
4

App. 32

Plaintiffs also challenge new Ohio Rev. Code §
1349.05(B), (C), (D), and (E):
(B) No health care practitioner, with the
intent
to
obtain
professional
employment for the health care
practitioner, shall directly contact in
person, by telephone, or by electronic
means any party to a motor vehicle
accident, any victim of a crime, or any
witness to a motor vehicle accident or
crime until thirty days after the date of
the motor vehicle accident or crime. Any
communication to obtain professional
employment shall be sent via the United
States postal service.
(C) No person who has been paid or
given, or was offered to be paid or given,
money or anything of value to solicit
employment on behalf of another shall
directly contact in person, by telephone,
or by electronic means any party to a
motor vehicle accident, any victim of a
crime, or any witness to a motor vehicle
accident or crime until thirty days after
the date of the motor vehicle accident or
crime. Any communication to solicit
employment on behalf of another shall
be sent via the United States postal
service.

App. 33

(D) If the attorney general believes that
a health care practitioner or a person
described in division (C) of this section
has violated division (B) or (C) of this
section, the attorney general shall issue
a notice and conduct a hearing in
accordance with Chapter 119. of the
Revised Code. If, after the hearing, the
attorney general determines that a
violation of division (B) or (C) of this
section occurred, the attorney general
shall impose a fine of five thousand
dollars for each violation to each health
care practitioner or person described in
division (C) of this section who sought to
financially benefit from the solicitation.
If the attorney general determines that
a health care practitioner or person
described in division (C) of this section
has subsequently violated division (B) or
(C) of this section, the attorney general
shall impose a fine of twenty-five
thousand dollars for each violation.
(E) After determining that a health care
practitioner or person described in
division (C) of this section has violated
division (B) or (C) of this section on three
separate occasions, and if that health
care practitioner or person described in
division (C) of this section holds a license
issued by an agency, the attorney
general shall notify that agency in
writing of the three violations. On
App. 34

receipt of that notice, the agency shall
suspend the health care practitioner’s or
the person’s license without a prior
hearing and shall afford the health care
practitioner or the person a hearing on
request in accordance with section
119.06 of the Revised Code.
New Ohio Rev. Code § 1349.05(A)(3)(e) includes
chiropractors under the definition of “health care
practitioner.”
Plaintiffs initially argued the regulations
violated the one subject rule embodied in Article II,
Section 15(D) of the Ohio Constitution;5 free speech
rights under the First Amendment; and equal
protection guarantees under the Fourteenth
Amendment. Two weeks after filing their complaint,
plaintiffs filed a motion for a preliminary injunction,
and requested an evidentiary hearing.6
For
evidentiary support, plaintiffs’ motion includes an
affidavit from the owner of Schroeder Referral
Systems, Inc.; an affidavit from Dr. Fonner, the owner
of First Choice Chiropractic, LLC; an affidavit from
Dr. Dahodwala, the owner of Allied Health &
Chiropractic, LLC; and an affidavit from Dr. Bowers,
the owner of Prestige Chiropractic and Injury, LLC.

5 “No bill shall contain more than one subject, which shall be
clearly expressed in its title. No law shall be revived or amended
unless the new act contains the entire act revived, or the section
or sections amended, and the section or sections amended shall
be repealed.”
6 ECF No. 3.

App. 35

Plaintiffs claim multiple injuries to their
businesses and to potential future patients as a result
of these new enactments.7 The plaintiff referral
service goes so far as to assert that “my business will
be effectively and immediately shut down and all our
employees will need to be laid off.”8 The plaintiff
chiropractors predict the regulations will require
immediate lay offs and the closing of offices, and will
cost them future business.9 They also predict greater
patient suffering caused by the new statutes.10
At a status conference with the District Court
on September 17, 2019, the parties agreed plaintiffs
would amend their complaint to name individual
defendants and to dismiss their state laws claims.11
The parties also agreed to a proposed briefing
schedule,12 and consented to transferring this case to
me. The litigation presupposes a speedy resolution,
as the new statutory provisions take effect on October
17, 2019.
On September 20, 2019, plaintiffs filed their
first amended complaint, which names as defendants
Ohio Governor Mike DeWine, Ohio Attorney General
Dave Yost, and the Ohio State Chiropractic Board.
The first amended complaint seeks declaratory relief
ECF No. 3-1, at 2.
Id.
9 ECF No. 3-2, at 2; ECF No. 3-3, at 2; ECF No. 3-4, at 2.
10 ECF No. 3-2, at 1-2; ECF No. 3-3, at 1-2; ECF 3-4, at 1.
11 Plaintiffs subsequently filed a separate lawsuit in the
Cuyahoga County Court of Common Pleas to assert their state
law claims. Allied Health & Chiropractic, LLC v. State of Ohio,
Case No. CV-19-922186. As of this order, the state court has not
yet adjudicated those claims.
12 ECF No. 7.
7
8

App. 36

only on federal free speech and equal protection
claims. Plaintiffs’ first amended complaint continues
to mention new Ohio Rev. Code § 149.43(A)(1)(mm),
which excludes from the definition of “public record”
in that section victim telephone numbers from
accident and police reports. Other than to note that
this new statutory provision interferes with and
impedes their efforts to contact new patients,13
plaintiffs never indicate how it violates a
chiropractor’s free speech or equal protection rights.
Accordingly, the analysis below focuses on new Ohio
Rev. Code § 1349.05(B), (C), (D), and (E) instead.
In opposition, defendants argue that the new
regulations do not impose a prior restraint on
plaintiffs’ First Amendment rights.14 Defendants
instead characterize the new legislation as
permissible regulation of commercial speech.15
Moreover, because the regulations pass constitutional
muster under the First Amendment, the regulations
similarly do not violate plaintiffs’ equal protection
guarantees under the Fourteen Amendment, so argue
defendants.16 They also urge me to deny or dismiss as
moot plaintiffs’ motion for a preliminary injunction
because the motion relates to the original complaint
and not to the first amended complaint, which names
two defendants not in the original complaint.
Defendants also argue that the Eleventh

ECF No. 8, at 11.
ECF No. 15, at 1.
15 Id.
16 Id. at 2.
13
14

App. 37

Amendment17 bars this lawsuit as to the Ohio State
Chiropractic Board, because a lawsuit against this
state agency is in effect a lawsuit against the state
itself.
On October 4, 2019, plaintiffs filed a reply brief
in support of their motion for a preliminary
injunction.18 Plaintiffs first reject the argument that
the Ohio State Chiropractic Board cannot be sued
here. Plaintiffs base their argument on a Supreme
Court case,19 a practice that was done without
objection in similar litigation in Tennessee,20 and an
email on this issue to defendants’ counsel that
apparently has gone unanswered.21 Plaintiffs next
argue that the enactments constitute a content-based
prior restraint that the defendants have failed to
justify with any evidentiary support, such as
legislative history, committee hearing transcripts, or
the like.22 Moreover, in plaintiffs’ view, health care
practitioners are similarly situated with lawyers or
insurance agents. Because the free speech rights only
of health care practitioners are restricted, the
17 “The judicial power of the United States shall not be construed
to extend to any suit in law or equity, commenced or prosecuted
against one of the United States by citizens of another state, or
by citizens or subjects of any foreign state.”
18 ECF No. 19.
19 Shaw v. Delta Airlines, Inc., 463 U.S. 85, 96 n.14 (1983), which
plaintiffs cite for the proposition that “[i]t is beyond dispute that
federal courts have jurisdiction over suits to enjoin state officials
from interfering with federal rights.” ECF No. 19, at 2.
20 ECF No. 19, at 3 (citing Silverman v. Summers, 28 F. App’x
370 (6th Cir. 2001), and Capobianco v. Summers, 377 F.3d 559
(6th Cir. 2004)).
21 ECF No. 19-1.
22 ECF No. 19, at 9.

App. 38

challenged statutory provisions violate equal
protection guarantees that plaintiffs argue they
would otherwise enjoy.23
At a status conference with me on October 1,
2019, the parties agreed to proceed to oral argument
without any additional evidentiary submissions. The
parties presented those arguments on October 9,
2019.
III.
Four-Prong Preliminary Injunction Test
Preliminary injunctions are viewed as an
extraordinary remedy used to preserve the status quo
between the parties pending final adjudication of the
case on its merits.
The four-prong test for a
preliminary injunction is well-established even in the
particularized First Amendment context.
When determining the appropriateness
of a preliminary injunction, a court must
examine four factors. First, the court
must determine “whether the plaintiff
has established a substantial likelihood
or probability of success on the merits” of
his claim. Winnett v. Caterpillar, Inc.,
609 F.3d 404, 408 (6th Cir. 2010)
(internal quotation marks omitted).
Second, the court will determine
“whether the [plaintiff] would suffer
irreparable injury” if a preliminary
23

Id. at 14.

App. 39

injunction did not issue. Bays [v. City of
Fairborn], 668 F.3d [814] at 818-19 [(6th
Cir. 2012)] (citing [Certified Restoration
Dry Cleaning Network, LLC v.] Tenke
Corp., 511 F.3d [535] at 542 [(6th Cir.
2007)]). Third, the court determines
“whether the injunction would cause
substantial harm to others.” Id. at 819.
And finally, a court must consider
“whether the public interest would be
served” if the court were to grant the
requested injunction. Id.
Each of these factors “[should] be
balanced against one another and should
not be considered prerequisites to the
grant of a preliminary injunction.”
Leary [v. Daeschner], 228 F.3d [729] at
736 [(6th Cir. 2000)]. In the context of a
First Amendment claim, the balancing of
these factors is skewed toward an
emphasis on the first factor. As this
Circuit has previously stated,
When a party seeks a
preliminary injunction on
the basis of the potential
violation of the First
Amendment, the likelihood
of success on the merits
often
will
be
the
determinative factor. With
regard to the factor of
App. 40

irreparable
injury,
for
example, it is well-settled
that
“loss
of
First
Amendment freedoms …
unquestionably constitutes
irreparable injury.”
Connection Distrib. Co. v. Reno, 154 F.3d
281, 288 (6th Cir. 1998) (quoting Elrod v.
Burns, 427 U.S. 347, 373 … (1976)
(plurality)). In cases implicating the
First Amendment, the other three
factors often hinge on this first factor.24
The parties do not disagree with this focus on
the movant’s burden to show a likelihood of success on
the merits.25 Because a determination of whether
plaintiffs are entitled to a preliminary injunction
depends so heavily on whether they have established
a substantial likelihood or probability of success on
the merits, I turn my attention to this question.
24 Liberty Coins, LLC v. Goodman, 748 F.3d 682, 689-90 (6th Cir.
2014). Accord Chiropractors United for Research and Education,
LLC v. Conway, slip op., 2015 WL 5822721, at *1-2 (W.D. Ky.
Oct. 1, 2015), aff’d, Case No. 15-6103 (6th Cir. July 1, 2016)
(unpub. op.) (affirming denial of preliminary injunction on a
similar regulation affecting healthcare providers related to
solicitation of motor vehicle accident victims).
25 See, e.g., Chiropractors United for Research and Education,
LLC, supra, Case No. 15-6103, at 3 (“[i]n First Amendment
cases, ‘the crucial inquiry is usually whether the plaintiff has
demonstrated a likelihood of success on the merits’ ”) (quoting
Bays v. City of Fairborn, 668 F.3d 814, 819 (6th Cir. 2012)
(internal citation omitted)).

App. 41

First Amendment Claims
Commercial speech has long enjoyed some type
of First Amendment protection from unwarranted
governmental regulation. In most cases, the question
is: How much protection? “It is clear, for example,
that speech does not lose its First Amendment
protection because money is spent to project it, as in a
paid advertisement of one form or another.”26 The
protections go beyond advertising. “Speech likewise
is protected even though it is carried in a form that is
‘sold’ for profit, … and even though it may involve a
solicitation to purchase or otherwise pay or contribute
money.”27 It is in essence “the free flow of commercial
information”28 the First Amendment is protecting, but
this returns us to the question: How much protection?
We have not discarded the “commonsense” distinction between speech
proposing a commercial transaction,
which occurs in an area traditionally
subject to government regulation, and
Virginia State Bd. of Pharmacy v. Virginia Citizens Consumer
Council, Inc., 425 U.S. 748, 761 (1976) (citing Buckley v. Valeo,
424 U.S. 1 (1976); Pittsburgh Press Co. v. Human Relations
Comm’n, 413 U.S. 376, 384 (1973); and New York Times Co. v.
Sullivan, 376 U.S. 254, 266 (1964)).
27 Virginia State Bd. of Pharmacy, supra, id. (citing Smith v.
California, 361 U.S. 147, 150 (1959); Joseph Burstyn, Inc. v.
Wilson, 343 U.S. 495, 501 (1952); Murdock v. Pennsylvania, 319
U.S. 105, 111 (1943); New York Times Co., supra, 376 U.S. at
266; NAACP v. Button, 371 U.S. 415, 429 (1963); Jamison v.
Texas, 318 U.S. 413, 417 (1943); and Cantwell v. Connecticut, 310
U.S. 296, 306-07 (1940)).
28 See, e.g., Bates v. State Bar of Arizona, 433 U.S. 350, 365
(1977).
26

App. 42

other varieties of speech. [Virginia State
Bd. of Pharmacy, supra, 425 U.S. at 771
n.24.]
To require a parity of
constitutional protection for commercial
and noncommercial speech alike could
invite dilution, simply by a leveling
process, of the force of the Amendment’s
guarantee with respect to the latter kind
of speech. Rather than subject the First
Amendment to such a devitalization, we
instead have afforded commercial speech
a limited measure of protection,
commensurate with its subordinate
position in the scale of First Amendment
values, while allowing modes of
regulation that might be impermissible
in the realm of noncommercial
expression.29
With this distinction between non-commercial
and commercial speech in mind, the Supreme Court
provided a framework in Central Hudson for
analyzing the fundamental question in this case: Is
Ohio’s regulation of chiropractors’ commercial speech
unwarranted and, thus, unconstitutional?
“The
protection available for particular commercial
expression turns on the nature both of the expression
and of the governmental interests served by its
regulation.”30
The first step of the Central Hudson
intermediate scrutiny test asks whether the speech
29
30

Ohralik v. Ohio State Bar Ass’n, 436 U.S. 447, 455-56 (1978).
Central Hudson Gas & Elec. Corp., 447 U.S. at 562-63.

App. 43

being regulated accurately informs the public about
lawful activity. If this threshold question is answered
affirmatively, the second part requires the state to
assert a substantial interest to be achieved by the
regulations. “The limitation on expression must be
designed carefully to achieve the State’s goal.”31 The
success of this design is measured by meeting the
third part of the test, namely, whether the regulation
directly advances the state interest involved. If so,
the fourth and final step requires a showing that the
governmental interest could not be served as well by
a more limited restriction on the commercial speech.32
“The regulatory technique may extend only as far as
the interest it serves. The State cannot regulate
speech that poses no danger to the asserted state
interest, … nor can it completely suppress
information when narrower restrictions on expression
would serve its interest as well.”33
The Sixth Circuit has already undertaken this
kind of constitutional analysis for chiropractors in
other states. It has, for example, recognized that
Tennessee has “a substantial interest in ‘protecting
the privacy of accident victims, preventing
overreaching by chiropractors and their agents and
regulating the profession.’ ”34 Moreover, a statutory

Id. at 564.
Id.
33 Id. at 565 (citing First National Bank of Boston v. Bellotti, 435
U.S. 765, 794-95 (1978)).
34 Capobianco v. Summers, 377 F.3d 559, 562 (6th Cir. 2004)
(quoting Silverman v. Summers, 28 F. App’x 370, 374 (6th Cir.
2001)).
31
32

App. 44

prohibition on speech is “an effective way of
addressing the [state’s] asserted interests.”35
Tennessee first enacted a sweeping prohibition
of in-person or telephone solicitation of a patient with
whom a chiropractor or his agent has had no family or
prior professional relationship.36 A violation was a
class B misdemeanor.
The Court of Appeals affirmed the District
Court’s decision to grant a preliminary injunction,
because the statute was “not sufficiently narrowly
tailored.”37 Part of the problem lay with the fact that
the statute had no time limit and did not identify
recent accident victims as the specific group
chiropractors or their agents could not solicit.38 “Our
conclusion that the state must achieve its ends with
more precise means is strengthened by the state’s
decision to treat the proscribed conduct as criminal
behavior.”39
Tennessee responded with a narrower
approach through an administrative regulation that
provided:
Telemarketing or telephonic solicitation
by licensees, their employees, or agents
to victims of accidents or disaster shall
be considered unethical if carried out
Silverman, 28 F. App’x at 374. See also Capobianco, 377 F.3d
at 563.
36 TENN. CODE ANN. § 63-4-114(5) (Supp. 2000); Silverman, 28
F. App’x at 371.
37 Silverman, 28 F. App’x at 375.
38 Id.
39 Id. (citing State v. Bradford, 787 So. 2d 811, 828 (Fla. 2001)).
35

App. 45

within thirty (30) days of the accident or
disaster, and subject the licensee to
disciplinary action pursuant to T.C.A. §
63-4-114.40
Chiropractors were the only medical
professionals subject to this rule, though attorneys
were similarly prohibited from soliciting accident
victims within 30 days of an accident.41
A number of years earlier, the Supreme Court
had upheld the constitutionality of a Florida bar rule
prohibiting attorneys from contacting, directly or
indirectly, accident victims or their relatives for the
purposes of soliciting their business for a period of 30
days following an accident.42 Because the Florida bar
rule met the intermediate scrutiny test under Central
Hudson and because there was no distinguishing
difference between Florida’s regulation of attorneys
and Tennessee’s regulation of chiropractors, the Sixth
Circuit concluded that the plaintiff had demonstrated
little likelihood of succeeding on the merits on his
First Amendment challenge.43
Tennessee’s
administrative regulation had corrected the two fatal
flaws of the earlier statute: the period of restricted
commercial speech was limited to 30 days, and no
criminal sanctions attached to a violation of the
regulation.44

TENN. COMP. R. & REGS. § 0260-2-.20(6)(a) (2000).
Capobianco v. Summers, supra, 377 F.3d at 561.
42 Florida Bar v. Went For It, Inc., 515 U.S. 618 (1995).
43 Capobianco, 377 F.3d at 563-64.
44 Id. at 563.
40
41

App. 46

Neighboring Kentucky followed a similar path
to regulate the solicitation of accident victims by
chiropractors.
In 2006, it amended a broad
administrative regulation to provide that “[a]
chiropractor shall not contact or cause an accident
victim to be contacted by the chiropractor’s employee,
agent, contractor, telemarketer, or anyone acting in
concert with the chiropractor.”45 Eight years later,
Kentucky enacted a statute that provided that, for a
period of 30 days immediately “following a motor
vehicle accident, a person … shall not directly solicit
or knowingly permit another person to directly solicit
an individual, or a relative of an individual, involved
in a motor vehicle accident for the provision of any
service related to a motor vehicle accident.”46 The
state legislature also enacted at that time an
exemption that allowed “[c]ommunications by an
insurer … or a [licensed] adjustor … or an employee
of an insurer or agent.”47
The District Court struck down this statute as
unconstitutional under the Central Hudson test. It
held that this new statute did not advance a
substantial government interest (third requirement),
and was both underinclusive and overinclusive
(fourth requirement).48
Less than a year later, Kentucky, like
Tennessee, narrowed its regulatory focus by enacting
a different solicitation statute providing that,
201 KAR § 21:015(1)(6)(b).
KRS 367.409(1).
47 KRS 367.409(2)(b)(3).
48 State Farm Mut. Auto. Ins. Co. v. Conway, 2014 WL 2618579,
at *13 (W.D. Ky. June 12, 2014).
45
46

App. 47

“[d]uring the first thirty (30) days following a motor
vehicle accident a healthcare provider or an
intermediary, at the request or direction of a
healthcare provider, shall not solicit or knowingly
permit another individual to solicit a person involved
in a motor vehicle accident for the provision of
reparation benefits, as defined by KRS 304.39020(2).”49 Like the Ohio enactments being challenged
here, Kentucky’s solicitation statute broadly defines
“healthcare provider” to encompass essentially all
licensed or certified healthcare professionals,
including chiropractors;50 does not apply to insurance
agents or adjustors or to attorneys;51 subjects the
licensed or certified healthcare provider to the
disciplinary process of his or her respective licensing
or regulatory authority in the event of a violation;52
and subjects the violator to cost penalties that are
arguably even harsher than Ohio’s by voiding any
charges owed by the victim, requiring the return of
any amounts paid by the victim, and prohibiting any
collection efforts.53
The District Court held that this version of the
regulation passed constitutional muster under the
intermediate scrutiny standard of Central Hudson.
The Sixth Circuit affirmed.54
KRS 367.4082(1).
KRS § 367.4081(1)(b).
51 KRS § 367.4082(1).
52 KRS § 367.4082(5).
53 KRS § 367.4083(1) and (2).
54 Chiropractors United for Research and Education, LLC v.
Conway, slip op., 2015 WL 5822721, at *11 (W.D. Ky. Oct. 1,
49
50

App. 48

Ohio now seeks to do what Tennessee and
Kentucky have already done—regulate health care
practitioners in their solicitation of accident victims.
These precedents direct the constitutional analysis
here to demonstrate that Ohio meets all four parts of
the Central Hudson intermediate scrutiny test.
No one questions that the speech at issue here
concerns accurately informing the public about lawful
activities. The Sixth Circuit has already held that
states like Tennessee and Kentucky have a
substantial interest in protecting privacy rights of
accident victims and regulating professionals in the
process by preventing overreach and fraud.55 The
Sixth Circuit has also held that regulations of the type
at issue here directly advance those substantial state
interests.56 Finally, Ohio’s enactments are similarly
narrow in focus like the solicitation limits in those
states where the Sixth Circuit or the Supreme Court
have upheld such limits. No one has posited that Ohio
needs to draft an even narrower set of regulations
than those of other states that courts have already
2015), aff’d, Case No. 15-6103 (6th Cir. July 1, 2016) (unpub. op.).
Plaintiffs chose not to challenge on appeal the District Court’s
finding that the Kentucky solicitation statute did not violate
equal protection.
55 Silverman, supra, 28 F. App’x at 374; Capobianco, supra, 377
F.3d at 562 (finding “no substantive difference between the
interest asserted in Florida Bar [prohibitions on lawyers] and
that asserted here”); Chiropractors United for Research and
Education, LLC, supra, 2015 WL 5822721, aff’d, Case No. 156103 (6th Cir. July 1, 2016), at 4.
56 Silverman, supra, 28 F. App’x at 374; Capobianco, supra, 377
F.3d at 563; Chiropractors United for Research and Education,
LLC, supra, 2015 WL 5822721, aff’d, Case No. 15-6103 (6th Cir.
July 1, 2016), at 4.

App. 49

upheld.
Indeed, rather than argue the new
enactments are more extensive than necessary to
serve Ohio’s interests, plaintiffs focus instead on the
absence of similar regulations on lawyers and
insurance companies and a statutory interpretation
that misreads the plain language in the new
enactments. Both issues I take up below.
Try as they might to distinguish these
holdings, plaintiffs provide no rationale that
persuades me (i) to use the strict scrutiny test instead
of the intermediate scrutiny test of Central Hudson,
(ii) to hold that the language in the new Ohio
enactments constitutes a content-based prior
restraint, or (iii) to find that defendants have failed to
meet their evidentiary burden associated with these
new legislative enactments.
On the first point, an abbreviated yet sufficient
analysis has me simply examining the Kentucky
solicitation statute, which the Courts in Chiropractors
United upheld using the Central Hudson
intermediate scrutiny test. Kentucky’s and Ohio’s
statutes are similar in nature, scope, and purpose.
They are, of course, not identical. How they regulate
chiropractors’ commercial speech, though, is not
sufficiently materially different as to require strict
scrutiny for the latter but not the former.
On the second point, another abbreviated yet
sufficient analysis has me returning to the opinion in
Central Hudson where the Supreme Court “observed
that commercial speech is such a sturdy brand of
expression that traditional prior restraint doctrine

App. 50

may not apply to it.”57 I can also return to the
opinions in Chiropractors United where the Courts
found similar solicitation regulation not to be a
content-based prior restraint.58 Again, the two states’
solicitation statutes are not sufficiently materially
different as to require different characterizations for
constitutional analysis. In addition, Ohio’s regulation
of the commercial speech at issue here—solicitation of
accident victims for business—is by definition not
content-based, that is, “a restriction triggered by the
speaker’s message.”59 It is also by definition not a
prior restraint, that is, “ ‘administrative and judicial
orders forbidding certain communications when
issued in advance of the time that such
communications are to occur.’ ”60 It is instead content-

Central Hudson Gas & Elec. Corp., supra, 447 U.S. at 571 n.13
(citing Virginia Pharmacy Board v. Virginia Citizens Consumer
Council, supra, 425 U.S. at 771-72 n.24). See also Chiropractors
United for Research and Education, LLC, supra, 2015 WL
5822721, aff’d, Case No. 15-6103 (6th Cir. July 1, 2016), at 3 (“the
Supreme Court has rejected the use of strict scrutiny in
challenges to commercial speech regulations”).
58 Chiropractors United for Research and Education, LLC, supra,
2015 WL 5822721, at *5, aff’d, Case No. 15-6103 (6th Cir. July
1, 2016), at 3-4.
59 Grider v. Abramson, 180 F.3d 739, 748 (6th Cir. 1999).
60 Alexander v. United States, 509 U.S. 544, 550 (1993) (quoting
M. NIMMER, NIMMER ON FREEDOM OF SPEECH § 4.03, at
4-16 (1984) (emphasis in original)).
See also Polaris v.
Amphitheater Concerts, Inc. v. City of Westerville, 267 F.3d 503,
506 (6th Cir. 2001) (defining prior restraint as orders “that block
expressive activity before it can occur” where the “lawfulness of
speech turns on the advance approval of government officials”)
(citing Alexander, id., and Shuttlesworth v. City of Birmingham,
394 U.S. 147, 151 (1969)).
57

App. 51

neutral regulation.
Consequently, intermediate
61
scrutiny is in order.
On the third point, plaintiffs correctly argue62
that Ohio has the burden of demonstrating that the
challenged enactments directly advance the interests
it asserts.63 As noted above, however, the Sixth
Circuit has already held that a statutory prohibition
on speech is “an effective way of addressing the
[state’s] asserted interests.”64 Furthermore, plaintiffs
never claim that Ohio has somehow escaped the
problems of overbearing solicitations Tennessee and
Kentucky have experienced. It would be surprising
indeed if plaintiffs were to make this claim, since they
acknowledged during oral argument that Ohio has a
substantial interest in protecting accident victims’
privacy from overbearing solicitations.65 Plaintiffs
also overlook the Ohio General Assembly’s efforts in
the prior legislative session to address business
solicitations targeting accident victims when three
committee hearings on the problem were convened
involving 20 witnesses.66
What plaintiffs are really after is to require
Ohio to utilize the least restrictive means available to
Grider, 180 F.3d at 748.
ECF No. 19, at 10-11.
63 Florida Bar v. Went For It, Inc., supra, 515 U.S. at 625-26
(quoting Rubin v. Coors Brewing Co., 514 U.S. 476, 487 (1995),
and Edenfield v. Fane, 507 U.S. 761, 767 (1993)).
64 Silverman, 28 F. App’x at 374. See also Capobianco, 377 F.3d
at 563.
65 Oral Arg. Draft Tr., 10/9/19, at 12.
66
See history of S.B. No. 148, 132nd G.A. at
https://www.legislature.ohio.gov/legislation/legislationcommittee-documents?id=GA132-SB-148.
61
62

App. 52

further its interests in protecting accident victims.67
The Supreme Court has rejected this interpretation of
the Central Hudson test. “What our decisions require
is … a fit that is not necessarily perfect, but
reasonable; that represents not necessarily the single
best disposition but one whose scope is ‘in proportion
to the interest served,’ … that employs not necessarily
the least restrictive means but … a means narrowly
tailored to achieve the desired objective. Within those
bounds we leave it to governmental decisionmakers to
judge what manner of regulation may best be
employed.”68
Plaintiffs’ position requires them to interpret
Ohio Rev. Code § 1349.05(B) and (C) as limiting
chiropractors and their agents to only the United
States Postal Service mail when communicating with
anyone to obtain professional employment.69 This
interpretation leads to two rather anachronistic
results. First off, it runs contrary to the position the
Ohio Attorney General has taken in this very
proceeding. As the state official responsible for
enforcing Ohio’s statutes, he may not be legally
estopped from changing his mind, but the position he
takes here surely counts for something.
At a
minimum, taking a position here on what the statute
means should dissuade any future changes in that
position lest the Ohio Attorney General be accused of
ECF No. 8, at 11; ECF No. 19, at 9.
Board of Trustees of State University of New York v. Fox, 492
U.S. 469, 480 (1989) (quoting In re R.M.J., 455 U.S. 191, 203
(1982)). See also Florida Bar, supra, 515 U.S. at 632 (“[i]n Fox,
we made clear that the ‘least restrictive means’ test has no role
in the commercial speech context”).
69 ECF No. 3, at 9.
67
68

App. 53

engaging in gamesmanship and judicial estoppel is
exercised.70
Moreover, plaintiffs’ interpretation
requires the second sentence in these two statutory
provisions to be read in isolation from the first.71 That
approach runs afoul of Ohio law.
“When there is no state law construing a state
statute, a federal court must predict how the state’s
highest court would interpret the statute.”72 When
confronted with an argument over the meaning of a
statute, the paramount concern of the Supreme Court
of Ohio is the legislative intent.73 “In discerning
legislative intent, we ‘consider the statutory language
in context, construing words and phrases in
accordance with rules of grammar and common
usage.’ ”74 The second sentence plaintiffs seize upon
may be unambiguous, but Ohio law still requires that
it be read in context. “Words and phrases shall be
See, e.g., In re Ohio Execution Protocol, 860 F.3d 881, 892 (6th
Cir. 2017) (rejecting judicial estoppel argument in Ohio’s policy
change regarding prisoner execution protocols, but noting that
judicial estoppel “prohibits ‘playing fast and loose with the
courts’—that is, ‘abusing the judicial process through cynical
gamesmanship’ by changing positions ‘to suit an exigency of the
moment’ ”) (quoting New Hampshire v. Maine, 532 U.S. 742, 74950 (2001), and Mirando v. U.S. Dep’t of Treasury, 766 F.3d 540,
545 (6th Cir. 2014)).
71 Id.
72 United States v. Simpson, 520 F.3d 531, 535 (6th Cir. 2008)
(citing Meridian Mut. Ins. Co. v. Kellman, 197 F.3d 1178, 1181
(6th Cir. 1999)).
73 State ex rel. Prade v. Ninth District Court of Appeals, 151 Ohio
St. 3d 252, 255 (2017); State Farm Mut. Auto. Ins. Co. v. Grace,
123 Ohio St. 3d 471, 476 (2009).
74 State ex rel. Prade, id. (quoting State Farm Mut. Auto. Ins. Co.,
id., and citing Ohio Rev. Code § 1.42).
70

App. 54

read in context and construed according to the rules
of grammar and common usage. Words and phrases
that have acquired a technical or particular meaning,
whether by legislative definition or otherwise, shall be
construed accordingly.”75
Newly enacted Ohio Rev. Code § 1349.05 (B)
and (C) forbid health care practitioners (or persons
working on their behalf), who are intending to obtain
professional employment, from directly contacting in
person, by telephone, or by electronic means any party
to a motor vehicle accident until 30 days after the date
of the accident. The statute’s unambiguous language
applies then to all forms of direct contact except USPS
mail. To drive that point home, the first sentence
containing the prohibition is followed by this
sentence: “Any communication to obtain professional
employment shall be sent via the United States postal
service.” Thus, in the context of the entire paragraph
as written, the second sentence expressly states what
is otherwise implied in the first sentence. In other
words, the second sentence precludes any ambiguity
plaintiffs now seek to exploit.
Reading the second sentence in context as Ohio
law requires, I am unpersuaded that Ohio Rev. Code
§ 1349.05 (B) and (C) do not mean what they say: for
the 30-day period following a motor vehicle accident,
a health care practitioner intending to obtain
professional employment is allowed to directly contact
a party to a motor vehicle accident only by using
USPS mail. After the 30-day period, the health care
practitioner can directly contact the party by using

75

Ohio Rev. Code § 1.42.

App. 55

USPS mail as well as in person, by telephone, or by
electronic means.
If there is any ambiguity, it lies in the possible
use of overnight couriers like FedEx. They cannot be
classified as USPS mail (required) but also do not fall
under the categories of contact in person, by
telephone, or by electronic means (prohibited). If this
is indeed an ambiguity in the statute, however, it cuts
against plaintiffs’ argument that they are forever
limited to USPS mail when soliciting business.
Plaintiffs
understandably
make
these
arguments to try to avoid intermediate scrutiny of the
First Amendment restrictions they challenge. That
is, nevertheless, the test to be used here in assessing
whether the Ohio enactments violate plaintiffs’ First
Amendment rights. Under the intermediate scrutiny
test, plaintiffs fail to show a substantial likelihood or
probability of winning their First Amendment claim
on the merits.
Equal Protection Claims
Applying the intermediate scrutiny test to
plaintiffs’ First Amendment claims has consequences
for their Fourteenth Amendment claims. “Because
regulation of commercial speech is subject to
intermediate scrutiny in a First Amendment
challenge, it follows that equal protection claims
involving commercial speech also are subject to the
same level of review.”76 The determination I must
make, therefore, is to decide “whether the
classifications in the statutes at issue are narrowly
Chambers v. Stengel, 256 F.3d 397, 401 (6th Cir. 2001) (citing
R.A.V. v. City of St. Paul, 505 U.S. 377, 385 (1992)).
76

App. 56

tailored to further a significant governmental
interest.”77
Case law suggests another abbreviated yet
sufficient analysis here. Because I have already
determined that the Ohio enactments pass
constitutional muster under the First Amendment’s
intermediate scrutiny test, those enactments then
pass constitutional muster under the Fourteenth
Amendment’s intermediate scrutiny test for purposes
of equal protection analysis.78
Beyond this abbreviated analysis, though, I
further determine that plaintiffs have not shown that
the new enactments are not “narrowly tailored to
further a significant governmental interest.”79
Plaintiffs complain that the new enactments do not
cover attorneys and insurance companies as well as
“hospitals, professional groups, and other medical
cooperative entities.”80 They argue that if Ohio were
“legitimately interested in establishing a thirty-day
period of solitude for accident victims, then everyone
would be required to respect such boundaries.”81
Sixth Circuit law is contrary to this broad sweep.
“The Equal Protection Clause does not require that
the state treat all persons alike. It requires only that
the state treat similarly situated persons alike, and
that where the state distinguishes between
Id.
See, e.g., Capobianco v. Summers, supra, 377 F.3d at 564;
Chiropractors United for Research and Education, LLC, supra,
2015 WL 5822721, at *11.
79 Chambers, 256 F.3d at 401.
80 ECF No. 3, at 14. See also ECF No. 19, at 13.
81 ECF No. 19, at 13 (emphasis in original).
77
78

App. 57

classifications of persons, the distinction must ‘have
some relevance to the purposes for which the
classification is made.’ ”82
Plaintiffs advocate for a broader, not narrower,
statute. Ohio Rev. Code § 1349.05(A)(3) defines
“health care practitioner” to encompass individuals
licensed under the code provisions to practice
medicine and surgery, as an advanced practice
registered nurse, as a physician assistant, as a
psychologist, and as a chiropractor. Ohio Rev. Code.
§ 1349.05(C) also extends the commercial speech
restrictions to any “person who has been paid or given,
or was offered to be paid or given, money or anything
of value to solicit employment on behalf of another.”
This statutory breadth is very similar to the one
upheld in Kentucky that covered healthcare providers
or their intermediaries.83 The District Court found
this narrowly tailored restriction furthered
substantial state interests. Accordingly, the Court
found no equal protection violation, and the plaintiffs
there did not challenge that part of the ruling in the
Sixth Circuit.84
Plaintiffs provide no basis for reaching a
different decision here. Lawyers and insurance
agents are not similarly situated as health care
providers.
Theirs businesses arise in different
82 Capobianco, supra, 377 F.3d at 564-65 (citing Chambers,
supra, 256 F.3d at 401 (quoting Baxstrom v. Herold, 383 U.S.
107, 111 (1966))).
83 KRS § 367.4081 (1) and (2).
84 Chiropractors United for Research and Education, LLC, supra,
2015 WL 5822721, at *11, aff’d, Case No. 15-6103 (6th Cir. July
1, 2016), at 2.

App. 58

markets,
different
entities
using
different
mechanisms regulate them, and their motives for
business solicitations differ from those of health care
providers. Even the three healthcare-related groups
plaintiffs identify as possibly lying outside the new
statute’s scope—hospitals, professional groups, and
other
medical
cooperative
entities—operate
differently from individual practitioners, assuming
plaintiffs are correct that these three groups lie
outside of the statute. Furthermore, plaintiffs provide
no evidence that these three groups even engage in
accident victim solicitation.
More generally, though, nothing in the law
requires legislatures to tackle societal ills of one sort
or another all in one fell swoop. Piecemeal regulation
is the norm rather than the exception. Accident
victim solicitation may indeed be a widespread
problem as plaintiffs suggest,85 but the case law in
this area arises principally because state legislatures
typically address problems in one profession or
another in a separate, focused manner at different
times.86 The Supreme Court has taken note of the
states’ authority to regulate business conduct in
professions—in fact, “a compelling interest in the
practice of professions within their boundaries, and
ECF No. 19, at 13.
See, e.g., Capobianco, supra, 377 F.3d at 564 (accepting that
medical doctors were not subject to state regulation even though
chiropractors were, and attorneys were subject to a similar rule).
Compare Chambers, supra, 256 F.3d at 399 (upholding Kentucky
attorney solicitation regulation enacted in 1996), and
Chiropractors United for Research and Education, LLC, supra,
2015 WL 5822721, at *2 (upholding Kentucky healthcare
provider solicitation regulation enacted in 2015).

85
86

App. 59

that as part of their power to protect the public health,
safety, and other valid interests they have broad
power to establish standards for licensing
practitioners and regulating the practice of
professions.”87 No court, however, ever insisted that
a state regulate one problem or one profession all at
one time. For these reasons, plaintiffs fail to show a
substantial likelihood or probability of winning their
Fourteenth Amendment equal protection claim on the
merits
Remaining
Prongs
of
the
Preliminary
Injunction Test
“When a party seeks a preliminary injunction
on the basis of a potential constitutional violation, ‘the
likelihood of success on the merits often will be the
determinative factor.’ ”88 Nevertheless, for the sake of
completeness, I review the remaining three prongs
that plaintiffs must meet for the Court to grant a
preliminary injunction.
Plaintiffs assert they will be irreparably
harmed absent the injunction. The plaintiff referral
service testified by affidavit that its business will be
“effectively and immediately shut down and all our
employees will need to be laid off.”89 The plaintiff
chiropractors complain of “the threat of bankruptcy”90

Goldfarb v. Virginia State Bar, 421 U.S. 773, 792 (1975). See
also Florida Bar, supra, 515 U.S. at 625.
88 Obama for Am. v. Husted, 697 F.3d 423, 436 (6th Cir. 2012)
(quoting Jones v. Caruso, 569 F.3d 258, 265 (6th Cir. 2009)).
89 ECF No. 3-1, at 2.
90 ECF No. 3-2, at 2.
87

App. 60

and the loss of business and future referrals.91 This
is perhaps overblown to some degree, since even the
plaintiff referral service will be able to seek business
via USPS mail and other general mass mailings and
the like. The same holds true for the plaintiff
chiropractors, who also can continue to see their
existing patients. Moreover, the Ohio enactments are
one-way limitations. Nothing in them prevents
someone who has been injured in a motor vehicle
accident to seek out a chiropractor for care and
treatment.
Defendants assert that accident victims will be
substantially harmed if I grant the injunction.92
Plaintiffs, of course, assert the opposite.93 Both sides
reach too far. Accident victims might find vexatious
the solicitations and advertisements they receive
shortly after an accident, but there are other
disciplinary controls on chiropractors and other
health care practitioners to curb out-of-line abuses.
Finally, both sides contend the public interest
is served if their position wins out.94 Plaintiffs argue
that delay in enforcement will allow the constitutional
claims to be addressed. Defendants argue that the
public has a right to see duly enacted laws enforced.
Again, both sides reach too far. This case does in fact
present two sets of constitutional issues, but no
further delay is needed to address them. And while
Ohio citizens have a right to see their laws enforced,

ECF No. 3-2, at 2; ECF No. 3-3, at 2; ECF No. 3-4, at 2.
ECF No. 15, at 17.
93 ECF No. 3, at 18-19.
94 ECF No. 3, at 18; ECF No. 15, at 17-18.
91
92

App. 61

the provisions at issue constitute just slightly over one
page of a 2,600-page bill.
This analysis instructs that plaintiffs on
balance have failed to carry their burden on all four
prongs of the preliminary injunction test. Defendants
also argue in opposition that I must deny plaintiffs’
motion for a preliminary injunction because it relates
to the original complaint and because the Eleventh
Amendment bars the Ohio State Chiropractic Board
from being in this lawsuit. Insofar as I have denied
plaintiffs’ motion for a preliminary injunction on
other grounds, these additional arguments are moot
for purposes of this order.
IV.
Plaintiffs confront strong case law precedents
in challenging newly enacted Ohio Rev. Code §
149.43(A)(1)(mm) and Ohio Rev. Code § 1349.05.
Plaintiffs’ efforts to sidestep those precedents are
unavailing. Primarily because plaintiffs fail to show
a substantial likelihood or probability of success on
the merits of their two federal claims, I deny their
motion for a preliminary injunction.
IT IS SO ORDERED.
Dated: October 16, 2019
s/ William H. Baughman, Jr.
United States Magistrate Judge

App. 62

Case: 1:19-cv-02010-WHB Doc #: 29 Filed: 12/20/19
1 of 2. PageID #: 303
IN THE UNITED STATES DISTRICT COURT
NORTHERN DISTRICT OF OHIO
EASTERN DIVISION
FIRST CHOICE CHIROPRACTIC,
LLC, et al.,
Plaintiffs,
v.
OHIO GOVERNOR MIKE DeWINE,
et al.,
Defendants

Case No. 1:19-CV-2010
MAGISTRATE WILLIAM H. BAUGHMAN, JR.
JOINT STIPULATION OF THE PARTIES FOR
FINAL ADJUDICATION UPON THE MERITS
STIPULATION
Plaintiffs, First Choice Chiropractic, LLC, James
Fonner, D.C., Prestige Chiropractic & Injury, LLC,
Rennes Bowers, D.C., Allied Health & Chiropractic,
App. 63

LLC, Ty Dahodwala, D.C., and Schroeder Referral
Systems, Inc., and Defendants, Ohio Governor Mike
DeWine, Ohio Attorney General Dave Yost, and Ohio
State Chiropractic Board, being all the parties to this
action, stipulate and agree that they do not intend to
submit any further evidence or argumentation in
these proceedings, and this Court may proceed to
adjudicate the merits of the First Amended
Complaint’s claims for declaratory and injunctive
relief based upon the present record. The parties
adopt by reference their earlier evidentiary
submissions, legal positions, and pleadings, none of
which are being waived. The parties further agree
that the entry of final judgment should reflect that
they are bearing their own costs.
Respectfully Submitted,
s/ Paul W. Flowers
Paul W. Flowers, Esq. (#0046625)
Louis E. Grube, Esq. (#0091337)
PAUL W. FLOWERS, CO., L.P.A.
Terminal Tower, Suite 1910
50 Public Square
Cleveland, Ohio 44113
(216) 344-9393
pwf@pwfco.com
leg@pwfco.com
Attorneys for Plaintiffs,
First Choice Chiropractic, LLC, et al
App. 64

s/Tiffany L. Carwile
Tiffany L. Carwile, Esq. (#0082522)
Michael A. Walton, Esq. (#0092201)
Assistant Attorney General
Constitutional Offices Section
30 East Broad Street, 16th Floor
Columbus, Ohio 43215
(614) 466-2872
tiffany.carwile@ohioattorneygeneral.gov
michael.walton@ohioattorneygeneral.gov
Attorneys for Defendants,
Governor DeWine and Attorney General Yost
s/Katherine J. Bockbrader
Katherine J. Bockbrader, Esq. (#0066472)
Assistant Attorney General
Health and Human Services Section
30 East Broad Street, 26th Floor
Columbus, Ohio 43215
(614) 466-8600
katherine.bockbrader@ohioattorneygeneral.gov
Attorney for Defendant,
Ohio State Chiropractic Board

App. 65

